audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs, Bureau of Justice Assistance Grant to the Fort Pierce, Florida, Police Department
GR-40-99-011
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance (BJA), to the Fort Pierce, Florida, Police Department (grantee).  The grantee received a $413,215 grant to hire or rehire six sworn officers under the Police Hiring Supplement program.  The purpose of the grant was to enhance community policing efforts.

	In brief, our audit determined the grantee:

Received $55,301 for salaries and fringe benefits above the amounts approved by OJP.

	Supplanted $119,428 in local funds by leaving City-funded positions vacant while it kept all grant-funded positions filled.

	Did not submit most quarterly reports or the final report to BJA.  The monitoring reports that were submitted contained inaccurate information and were sometimes untimely.
  
These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.